Dred Scott LLP

 

George Jackson III, Managing Partner

 

55 West Monroe Street, Suite 990, Chicago, Illinois 60603-5001

 

GJackson@DredScottLLP.Com _ Direct: (312) 833-0896 Cellular (773) 454-7645

July 15, 2020

Clerk of Court

United States Supreme Court
1 First Street, N.E.
Washington, DC 20543

Re: Emergency Application for Stay pending
Petition for a Writ of Certiorari, #19-8665

Dear Supreme Court Clerk,

Applicant seeks an Emergency Stay of all Orders the Illinois Supreme Court (“Illinois
Court”) entered in M.R. 030370 purporting to toll the Speedy Trial terms in all criminal cases in
Illinois. Specifically, we challenge the purported tolling Orders entered on March 20, April 3,
and April 7, 2020, the two April 17, 2020, Orders denying Applicant’s Motions to Vacate the
tolling Orders, and all subsequent tolling Orders.

Applicant requested the Illinois Court to stay its March 20, April 3, and April 7, 2020,
Orders. The Illinois Court denied the motion.

Our positions are precise. First, the Illinois Court violated due process by entering
blanket Orders purporting to toll the Speedy Trial terms in all Illinois criminal cases. Applicant’s
pending criminal case falls within that lot. The Illinois Court lacked jurisdiction for those Orders
because the cases were not before the Illinois Court. Second, we seek to challenge use of ends-
of-justice language to toll terms. Ends-of-justice language is unconstitutionally over broad. The
Illinois Court inserted that language into its April 7, 2020, and subsequent tolling Orders.

Urgent intervention by the United States Supreme Court, we submit, is dire. The
problems of blanket tolling Order and ends-of-justice delays is systemic. Federal district courts
(mainly Chief Judges) across the nation have issued blanket Orders purporting to toll Speedy
Trial terms of all criminal cases within their respective districts. Without jurisdiction the Orders
are void ab initio. The negative impact on defendants and society portends to be massive, and
expanding with time passage. This is an important national issue for the Supreme Court.
19-8665, Application for Stay

We submit the Illinois Court and all other courts were required to follow the procedures
employed in Hawaii federal court. The District Court of Hawaii entered a COVID-19 Order
directing each assigned judge to review individual cases and make appropriate findings in
accordance with the Speedy Trial Act. The Hawaii Chief Judge’s COVID-19 Order did not
purport to toll Speedy Trial terms, and indeed did not make any substantive findings.

We respectfully seek a Stay and granting of certiorari.

Respectfully,

    

a0 cael

po

fect) eord for Applicant
Attachment:
